           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

   MONITORING CONTROLS FOR THE
   CONSENT BASED SOCIAL SECURITY
   NUMBER VERIFICATION PROGRAM


     October 2012   A-03-12-11201




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:   October 25, 2012                                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Monitoring Controls for the Consent Based Social Security Number Verification Program
        (A-03-12-11201)


        OBJECTIVE
        Our objective was to assess the Social Security Administration’s (SSA) monitoring
        controls for the Consent Based Social Security Number Verification (CBSV) program.

        BACKGROUND
        In Fiscal Year (FY) 2009, SSA implemented the CBSV program, which is a centralized,
        automated process that quickly assists companies with consent-based Social Security
        number (SSN) verification for non-program-related reasons. CBSV is available to
        private businesses as well as Federal, State, and local government agencies that need
        consent-based SSN verification.

        Companies that wish to register to use CBSV must complete the registration process on
        SSA’s Business Services Online (BSO) 1 Website. As part of this process, companies
        are required to sign a User Agreement; pay registration and transaction fees; and obtain
        written consent from the individual before verifying their SSN through CBSV, as
        required by the Privacy Act. 2 The Privacy Act states that, “. . . [n]o agency shall
        disclose any record which is contained in a system of records by any means of
        communication to any person, or to another agency, except pursuant to a written
        request by, or with the prior written consent of, the individual to whom the record
        pertains . . .” unless certain exceptions permit the disclosure, such as releasing the
        information, subject to conditions, to the Congress or the Comptroller General. 3




        1
            BSO is a suite of Internet services for businesses and employers to exchange information with SSA.
        2
            The Privacy Act of 1974, as amended (Privacy Act), 5 U.S.C. § 552a.
        3
         Privacy Act § 552a (b). 5 U.S.C. § 552a (b). See Appendix B for more details about the 12 exceptions
        under the Privacy Act.
Page 2 - The Commissioner


Companies are also required 4 to hire an independent certified public accountant (CPA)
to assess the company’s compliance with the terms and conditions of the User
Agreement, especially the consent requirement. 5 The CPAs confirm companies are
using the Form SSA-89, Authorization for Social Security Administration (SSA) to
Release Social Security Number (SSN) Verification, 6 obtaining a valid consent from the
individual signing the form, and using CBSV only for the purpose indicated on the
consent form. SSA is responsible for determining the frequency of compliance reviews.
According to the User Agreement, SSA anticipated that the compliance reviews would
be conducted annually with additional reviews as deemed appropriate.

METHODOLOGY
As shown in Table 1, in FYs 2009 to 2011, SSA processed approximately 3.4 million
verification requests submitted by 75 companies. To accomplish our objective, we
gained an understanding of CBSV’s monitoring and compliance review process. In
addition, we reviewed the 26 compliance reviews conducted by independent CPAs as of
May 2012. See Appendix E for further discussion of our scope and methodology.

                      Table 1: CBSV Transactions - FYs 2009 Through 2011

          Response          FY 2009       FY 2010       FY 2011         Total       Percentage a
          Match b           778,070     1,100,222      1,352,077      3,230,369            95
                      c
          No Match           49,969         58,154        62,752        170,875              5
                  d
          Death                   61             65            50            176             0
              Total         828,100     1,158,441      1,414,879      3,401,420           100
         Note a: We rounded the percentage to the nearest whole number.
         Note b: The information submitted for verification matches SSA’s records.
         Note c: The information submitted for verification does not match SSA’s records.
         Note d: The information submitted for verification matches SSA’s records, but the records indicate
                  that the numberholder is deceased.

RESULTS OF REVIEW
SSA’s monitoring controls for the CBSV program need to be improved. The CBSV User
Agreement requires that participating companies include the date of birth (DoB) on
Form SSA-89. 7 However, SSA did not require the DoB as part of the matching criteria
for the CBSV program. As a result, SSA verified about 227,000 names and SSNs
through CBSV without verifying DoB. Of the 227,000 transactions, 337 related to
4
 The User Agreement established the conditions, terms, and safeguards for SSA to provide verification of
SSNs to registered companies. See Section VI. Compliance Reviews.
5
    See Appendix C for more details about the compliance review process.
6
    See Appendix D for an example of Form SSA-89.
7
  The CBSV User Agreement requires that companies obtain a signed Form SSA-89 from each person
from whom SSN verification is sought and the DoB must be completed.
Page 3 - The Commissioner


children who ranged in age from 2 months to 17 years. Because SSA verified the
names and SSNs without a DoB, it did not alert participating companies to possible
discrepancies between the DoBs provided by individuals and the DoBs recorded in SSA
records. These false positive responses may have contributed to the misuse of
children’s identities. We brought this issue to the Agency’s attention in a 2009 report, 8
but SSA had not taken steps to require that participating companies submit the DoB as
part of the verification request for the CBSV program.

SSA’s policy 9 allows parents or legal guardians with proper proof of relationship to give
consent to disclose nonmedical records for minor children. However, we found that the
Forms SSA-89 did not require that the relationship be specified for individuals who gave
consent to verify the names and SSNs of 126 children who ranged from ages 2 months
to 11 years. Without proof of relationship, SSA could be improperly disclosing children’s
personally identifiable information (PII) to third parties.

Finally, SSA did not always require that participating companies conduct an annual
compliance review to ensure companies were complying with the terms and conditions
of the User Agreement, especially the consent requirement. Specifically, of the
58 companies that used the CBSV program during FYs 2009 and 2010, we found

•     15 (26 percent) did not have a
      compliance review, of which 8                             Status of Compliance Reviews
      continued to use CBSV for SSN                                    FYs 2009 to 2010
      verification during FYs 2011 and                 No                                        Compliance
                                                   Compliance                                      Review
      2012;                                          Review                                      Completed
                                                      26%                                           45%

•     17 (29 percent) were in various
      stages of the compliance review
      process; and

•     26 (45 percent) had completed a              Compliance
      compliance review.                             Review
                                                    Initiated
                                                      29%
Additionally, for the 15 companies that
did not have a compliance review, SSA had no assurance that these companies
properly obtained a valid consent from the individuals whose names and SSNs were
verified or used the verification responses for the purpose indicated on the consent
forms.




8
 SSA, Office of the Inspector General (OIG), Consent Based Social Security Number Verification
Program (A-03-08-18067), July 2009.
9
    SSA, POMS, GN 03305.005 B.2.c (September 12, 2005).
Page 4 - The Commissioner


DATE OF BIRTH

For FYs 2009 to 2011, SSA verified about 227,000 names and SSNs that did not
include the DoB even though the DoB was a required field on the consent form, see
Table 2. We found that 337 of the names and SSNs related to children between ages
2 months and 17 years.

                        Table 2: CBSV Transactions by Submission
                              Criteria FYs 2009 Through 2011
                Submission        Total               Related to
                  Criteria    Transactions Percent Children a Percent
                   DoB          3,174,682        93      435     0.01
                  No DoB          226,738         7      337     0.15
                   Total        3,401,420       100      772     0.02
               Note a: The total transactions related to children only represent transactions
               where SSA provided a match response.

Our July 2009 report 10 informed the Agency about our concerns regarding submission
criteria for the CBSV program. We found that while the DoB was a required element on
the consent form, SSA did not require the DoB as part of the matching criteria for the
CBSV program. We recommended that SSA require that participating companies
submit the DoB as part of the verification request for the CBSV program to help prevent
the Agency from providing participating companies false positive responses and
increase the probability that SSA would detect instances of SSN misuse.

Although the Agency agreed with our recommendation, in May 2012, Agency staff
informed us that SSA would be amending the User Agreement to make the DoB
mandatory on the consent form. 11 We do not believe this action sufficiently addressed
the recommendation’s intent because the DoB was already a mandatory element on the
consent form, and as our review showed, some companies did not comply with this
requirement. In addition, making the DoB mandatory on the consent form will not
prevent SSA from processing verification requests that do not include the DoB as
shown in the examples below.

•     On January 7, 2010, a company that provided verification services to mortgage
      lenders, banks, credit unions, and other businesses verified the name and SSN of
      an 11-year-old child. The consent form included a DoB of September 7, 1973, but
      the company did not include this DoB as part of the verification request for a
      mortgage. Had the company included the DoB on the consent form, SSA would
      have provided a no-match response because the SSN belonged to a child who was
      born on October 10, 1998. Our review of LexisNexis showed that in February 2010,

10
     SSA OIG, Consent Based Social Security Number Verification Program (A-03-08-18067), July 2009.
11
  In August 2012, after the completion of audit fieldwork, the Office of Management and Budget approved
the revisions to the revised User Agreement.
Page 5 - The Commissioner


       someone using the child’s identity purchased a $157,000 house in California.
       Furthermore, someone misused the child’s identity for work purposes over a 9-year
       period beginning in 2003. From 2003 to 2011, the child had approximately
       $123,000 in wages posted to her earnings record by five different employers. In
       reviewing SSA’s Numident file, we found the mother and child shared the same first
       and last name, which could indicate that the parent may have misused the child’s
       identity for work purposes and to obtain a mortgage. We referred this case to our
       Office of Investigations (OI).

•      On July 23, 2010, a company that provides employment verification services verified
       the name and SSN of a 13-year-old child. The consent form included a DoB of
       May 29, 1965, but the company did not include this DoB as part of the verification
       request. The Numident showed that the child was born on January 16, 1997. The
       purpose of the verification request was for employment verification, and the child’s
       earnings record showed that the same company that verified the child’s SSN
       reported wages for him in Tax Years (TY) 2010 and 2011. In fact, the child had
       about $157,000 in wages posted to his earnings record for TYs 2004 through 2011
       that were reported by 19 different employers. In addition, both the child and his
       father shared the same first and last name, which could indicate that the parent may
       have misused the child’s identity for work purposes. We referred this case to OI.

We believe SSA needs to make a system change to the CBSV program to prevent
verification requests that do not include a DoB from being submitted to protect the
identity of innocent numberholders and provide more assurance that a valid verification
response is provided to third parties.

PROOF OF CONSENT FOR CHILDREN

According to SSA’s disclosure policy, 12 proof of a parent or legal guardian’s relationship
to the minor is required before a request to provide records on behalf of the minor can
be accepted. Specifically, a parent or legal guardian who is acting on behalf of a minor
child may give consent to disclose nonmedical information, including the verification of a
child’s name and SSN to a third party, but must first provide proof of the parent’s or
legal guardian’s relationship to the child. Such proof can consist of a birth record
showing the parent’s name or documentation from a court reflecting the guardian’s
appointment. 13

We found that SSA verified the names and SSNs of 772 children even though the Form
SSA-89 did not require that individuals who signed the consent form provide proof of
relationship to the child. The children ranged in age from 2 months to 17 years, and
45 were under the age of 6 years, see Table 3.



12
     SSA, POMS, GN 03305.005 B.2.c (September 12, 2005).
13
     Id.
Page 6 - The Commissioner


                             Table 3: Age Range for Minor Children
                              Minor Children Ages      Transactions
                              2 months to 5 years old                45
                                 6 to 11 years old                   81
                                12 to 17 years old                  646
                                       Total                        772

We reviewed 22 Forms SSA-89 from 5 companies that verified children and found the
following.

•     Two consent forms appeared to be valid for disclosure because the Forms included
      the relationship of the individual signing on behalf of the minor child. In both of these
      instances, a parent gave permission for their child’s SSN to be verified for claim
      purposes. The children were 3 and 4 years old.

•     Eight consent forms related to children between the ages of 12 and 17 years, who
      could give consent. According to SSA policy, 14 “. .. . [a] minor may give consent to
      disclose medical and nonmedical records if the office manager or reviewing central
      office official is reasonably sure that the minor is capable of making a rational
      decision to consent to the disclosure. . . The age of 12 may be used as a guideline
      for when a child is old enough to make such a decision; however, this is not a hard
      and fast rule. A child under 12 may be mature enough to consent while a child over
      12 may not be able to do so. Consider each child's ability separately to protect the
      child's rights.” While these children may be capable of giving consent, two of the
      Forms appear to relate to SSN misuse. The dates on the Forms indicated the
      verification requests were for adults (31- and 45-years old) when in fact the SSNs
      belonged to children (12- and13-years old). Further, one of the Forms identified the
      purpose of the verification request was for a mortgage. We referred these two cases
      to OI.

•     Twelve consent forms for children between ages 2 months and 11 years were not
      valid for disclosure because the proof of relationship for the individual who signed on
      behalf of the minor child was not established on the consent form. In addition, one
      case appears to relate to SSN misuse. We found the DoB shown on the consent
      form indicated that the verification request was for a 36 year old adult who was
      seeking a mortgage when the SSN belonged to an 11–year-old child. We referred
      this case to OI.

Additionally, the participating companies needed to obtain documentation that provided
proof of the parent or legal guardian’s relationship to the child before accepting a
request on the child’s behalf from a parent or legal guardian. We made this
recommendation in our 2009 report, 15 and the Agency agreed to take the necessary
14
     SSA, POMS, GN 03305.005 B.3 (September 12, 2005).
15
     SSA OIG, Consent Based Social Security Number Verification Program (A-03-08-18067), July 2009.
Page 7 - The Commissioner


steps to change the CBSV User Agreement. Without proper proof of relationship, SSA
had no assurance whether the individuals who signed the consent form had a legal right
to do so. Further, the consent provided for the children may not be valid and could
represent an improper disclosure.

Through discussions with SSA staff, we found that the CBSV consent form was missing
elements required to identify valid consent on a child’s behalf because the Agency
originally did not anticipate a situation where a parent would be signing on their child’s
behalf. SSA had designed the CBSV program for third-party requesters to verify SSNs
for specific business needs, such as mortgages and lending. Therefore, the Agency did
not foresee a business need to verify a child’s name and SSN. Agency staff informed
us that they planned to revise the consent form and User Agreement. The revised Form
SSA-89 will require the relationship of the individual signing the consent form on behalf
of a minor child. SSA informed us it will revise the User Agreement to require that when
participating companies verify the SSN of a minor under age 18, they must ensure that
the parent or legal guardian signed the consent form and retain proof of the relationship.
In August 2012, after the completion of audit fieldwork, OMB approved the revisions to
the revised User Agreement.

MONITORING CONTROLS FOR COMPLIANCE REVIEWS

SSA did not always require that participating companies conduct an annual compliance
review to ensure companies were complying with the terms and conditions of the User
Agreement, especially the consent requirement. According to the User Agreement,
SSA anticipated that the compliance reviews would be conducted annually with
additional reviews as deemed appropriate. Of the 58 companies that used the CBSV
program during FYs 2009 and 2010, 26 had a compliance review, 17 were in various
stages of the compliance review process, and 15 did not have a compliance review.

Compliance Reviews Conducted

We found that 26 participating companies hired independent CPAs to conduct their
compliance reviews. These participating companies submitted between 687 and
1.1 million verification requests in FYs 2009 and 2010, totaling about 2 million
verification requests. As part of the compliance review process, 16 SSA will (1) request
that a company provide its CPA’s contact information; (2) request an attestation letter
from the CPA; (3) send transaction data to the CPA for testing during compliance
review; (4) ensure the CPA provides a report within 30 days after the review is
completed; and (5) meet with the company to discuss the findings of the review, if
necessary.

The compliance review findings ranged from companies providing access to CBSV to
their employees who were not approved by SSA and missing consent forms.
Specifically, we found 10 (38 percent) of the 26 participating companies did not always


16
     See Appendix C for details about the compliance review process.
Page 8 - The Commissioner


ensure that the consent forms were completed as required. 17 The CPAs reported that
some consent forms had incorrect dates of birth and were missing signatures of the
consenting individuals, dates the consent forms were signed, and/or signee contact
information.

In addition, a CPA found that a company could not produce any Forms SSA-89 for
individuals whose names and SSNs were verified. Specifically, the report showed that
an Internet-based company that offered universal gift certificates did not obtain a signed
valid consent form from any of the approximately 1,900 individuals whose names and
SSNs were verified through the CBSV program from November 2009 through
June 2010. Since the company did not obtain valid consent from the numberholders,
SSA unknowingly, improperly disclosed PII to this company. The Agency immediately
took appropriate action by terminating the company’s access to the CBSV program.

Compliance Reviews Scheduled

During our audit, SSA initiated compliance reviews for 17 participating companies that
submitted about 19,000 verification requests during FYs 2009 and 2010, ranging from
11 to 3,028 verification requests. As shown in Table 4, the compliance reviews were in
various stages. As of May 2012, the CPAs had not completed these compliance
reviews.

           Table 4: Status of Scheduled Compliance Reviews (as of May 2012)
                                   Status                          Total
           Requested or received CPA information from company       12
                                            a
           Requested or received attestation letter from CPA         3
           Sample data sent to CPA for compliance review             2
                                    Total                           17
          Note a: The CPA firm sends and signs an attestation letter explaining that it is performing
          the agreed upon engagement procedures for the participating company. The CPA
          agrees to protect the confidentiality of PII, provide SSA with a report 30 days after the
          engagement, and destroy the data SSA sent 30 days after the engagement is completed.

No Compliance Reviews Conducted

We found that 15 participating companies submitted approximately 26,000 verification
requests in FYs 2009 and 2010 but did not have compliance reviews. SSA requested
that 4 of the 15 companies that submitted approximately 25,000 verification requests
conduct a compliance review, but the companies refused citing the cost associated with
hiring a CPA firm to conduct the review. Their refusal was a clear violation of the User
Agreement, and SSA took appropriate action by terminating their access to the CBSV
program. 18

17
     SSA, POMS, GN 03305.001 B.2 (September 12, 2005).
18
     In addition, SSA referred one of the company’s to OI for non-compliance of the CBSV User Agreement.
Page 9 - The Commissioner


Additionally, three participating companies that did not have a compliance review
voluntarily stopped using CBSV. In FY 2009, the 3 companies submitted
294 verification requests. At that time, the cost per transaction was $5.00, and the high
cost may have contributed to the companies not using the program. SSA did not
request that the remaining eight companies conduct a compliance review even though
they continued to use the CBSV program during FYs 2011 and 2012. As shown in
Table 5, while the number of transactions submitted by these companies was relatively
small in FYs 2009 and 2010 (550 transactions), their use increased significantly in
FY 2012 when the fee for the CBSV program was reduced to $1.05 per transaction.

           Table 5: Status of Companies Without Compliance Review
                               Number of          CBSV Transactions
            Status             Companies    2009     2010     2011                2012
  Refused Compliance Review        4       14,724    9,795    4,981                 -
  Stopped Using CBSV               3          294         -        -                -
  Continued to Use CBSV            8          390      156      271               677
             Total                15       15,408    9,951    5,252               677

According to SSA staff, the Agency did not request that the 11 participating companies
conduct compliance reviews because their verification requests did not meet the
Agency’s threshold of 500 or more verifications cumulatively or in 1 year. When asked,
Agency staff could not explain the basis for this threshold and whether it was based on
a risk assessment or any other requirement. Therefore, it is not clear whether the
amount of verifications submitted is a good indicator of whether a company will comply
with the terms and conditions of the User Agreement. In fact, we found that 6 of the
11 companies were not complying with the User Agreement because they submitted
verification requests that did not include the numberholder’s DoB. We discussed this
finding in more detail earlier in the report. We believe SSA should follow the guidance
included in its User Agreement, which states that the compliance reviews would be
conducted annually with additional reviews as deemed appropriate. Requiring annual
compliance reviews would provide SSA with more assurance that it is properly
disclosing records protected by the Privacy Act. In June 2012, after the completion of
the audit fieldwork, SSA awarded a contract to a CPA firm to conduct compliance
reviews for 16 selected companies using the existing criteria included in the User
Agreement. In addition, the CPA firm is tasked to provide SSA with recommendations
on how to improve CBSV User Agreement requirements, compliance review criteria,
and related business processes.

CONCLUSION AND RECOMMENDATIONS
Overall, SSA’s monitoring controls for the CBSV program need to be improved to help
ensure the Agency is properly disclosing numberholders’ information to third parties in
accordance with the Privacy Act. Our review revealed that SSA allowed participating
companies to submit about 227,000 verification requests without including the DoB,
which led to SSA providing false positive responses and contributed to the misuse of
children’s identities. Further, SSA did not always require that participating companies
Page 10 - The Commissioner


conduct an annual compliance review to ensure companies were complying with the
terms and conditions of the User Agreement, especially the consent requirement. In
addition, the Form SSA-89, used to provide consent for the CBSV program, did not
require the relationship of the individuals who gave consent to verify the names and
SSNs of 126 children who ranged in age from 2 months to 11 years, and companies did
not always obtain consent. Finally, we found the companies were not required to obtain
or retain proof of the parent or legal guardian’s relationship to the child before accepting
a request on the child’s behalf. In August 2012, SSA revised the User Agreement
requiring that companies obtain and retain proof of relationship for consent for minors.
As a result, we believe SSA needs to take steps to improve its monitoring controls of the
CBSV program to ensure compliance with the terms and conditions of the User
Agreement and avoid improper disclosure of PII.

Accordingly, we recommend SSA:
1. Make a systems change to the CBSV program to prevent the processing of
   verification requests without a DoB.
2. Justify and document why the eight companies were not required to have a
   compliance review but continued to use CBSV.
3. Require that participating companies conduct a compliance review at least annually.

AGENCY COMMENTS
The Agency agreed with Recommendations 2 and 3. SSA disagreed with
Recommendation 1 stating that it was cost-prohibitive to change the CBSV system to
incorporate the DoB in the verification process at this time. However, the Agency stated
it would reevaluate this decision in the future, as resources allow. In the interim, the
Agency plans to include more SSN verification disclosures related to minors’ records in
the audit compliance review certified public accountants conduct for participating
companies. The full text of SSA’s comments is included in Appendix F.

OIG RESPONSE
The cost to change the CBSV system to incorporate the DoB in the verification program
should not be prohibitive because SSA is reimbursed all costs incurred to operate and
manage CBSV through fees paid by participating companies. Annually, SSA assesses
the cost to operate CBSV and adjusts its fees accordingly. This helps ensure that the
Agency’s appropriation does not bear the cost for CBSV since it does not directly relate
to the administration of SSA programs. Therefore, we encourage the Agency to
reconsider and implement our recommendation sooner rather than later to protect the
identity of children and provide more assurance that a valid verification response is
provided to third parties.


                                          Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Exceptions Under the Privacy Act

APPENDIX C – Compliance Review Process

APPENDIX D – Authorization for the Social Security Administration (SSA) to Release
             Social Security Number (SSN) Verification (Form SSA-89)

APPENDIX E – Scope and Methodology

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgment
                                                              Appendix A

Acronyms
BSO      Business Services Online
CBSV     Consent Based Social Security Number Verification
CPA      Certified Public Accountant
DoB      Date of Birth
FY       Fiscal Year
OI       Office of Investigations
OIG      Office of the Inspector General
OMB      Office of Management and Budget
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
TY       Tax Year


Form
SSA-89   Authorization for the Social Security Administration (SSA) to
         Release Social Security Number (SSN) Verification
                                                                             Appendix B

Exceptions Under the Privacy Act
The Privacy Act prohibits agencies from disclosing any record, which is contained in a
system of records by any means of communication, to any person, or to another
agency, except pursuant to a written request by, or with the prior written consent of, the
individual to whom the record pertains, unless disclosure would be: 1

1. to those officers and employees of the agency which maintains the record who have
   a need for the record in the performance of their duties;

2. required under section 552 of this title;

3. for a routine use as defined in subsection (a)(7) of this section and described under
   subsection (e)(4)(D) of this section;

4. to the Bureau of the Census for purposes of planning or carrying out a census or
   survey or related activity pursuant to the provisions of Title 13;

5. to a recipient who has provided the agency with advance adequate written
   assurance that the record will be used solely as a statistical research or reporting
   record, and the record is to be transferred in a form that is not individually
   identifiable;

6. to the National Archives and Records Administration as a record which has sufficient
   historical or other value to warrant its continued preservation by the United States
   Government, or for evaluation by the Archivist of the United States or the designee
   of the Archivist to determine whether the record has such value;

7. to another agency or to an instrumentality of any governmental jurisdiction within or
   under the control of the United States for a civil or criminal law enforcement activity if
   the activity is authorized by law, and if the head of the agency or instrumentality has
   made a written request to the agency which maintains the record specifying the
   particular portion desired and the law enforcement activity for which the record is
   sought;

8. to a person pursuant to a showing of compelling circumstances affecting the health
   or safety of an individual if upon such disclosure notification is transmitted to the last
   known address of such individual;




1
    The Privacy Act of 1974, as amended (Privacy Act), 5 U.S.C. § 552a(b).


                                                    B-1
9. to either House of Congress, or, to the extent of matter within its jurisdiction, any
   committee or subcommittee thereof, any joint committee of Congress or
   subcommittee of any such joint committee;

10. to the Comptroller General, or any of his authorized representatives, in the course of
    the performance of the duties of the Government Accountability Office;

11. pursuant to the order of a court of competent jurisdiction; or

12. to a consumer reporting agency in accordance with section 3711(e) of Title 31.




                                            B-2
                                                                     Appendix C
Compliance Review Process
Participating companies are required to sign a User Agreement; pay registration and
transaction fees; and obtain written consent from the individual before verifying the
individual’s Social Security number through the Social Security Administration’s (SSA)
Consent Based Social Security Number Verification (CBSV) program. Moreover,
companies are to bear all costs associated with hiring an independent certified public
accountant (CPA) to assess the company’s compliance with the terms and conditions of
the User Agreement, especially the consent requirement.

The CPAs are required to follow standards established by the American Institute of
Certified Public Accountants. In addition, they are not supposed to have a professional
or personal affiliation with the CBSV registered company, including previous
employment. However, the CBSV registered company may use the CPA that performs
its annual financial audit.
                                     Appendix D
Authorization for the Social Security
Administration (SSA) to Release Social Security
Number (SSN) Verification (Form SSA-89)
D-1
D-2
                                                                     Appendix E
Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal law and regulations as well as the Social Security
    Administration’s (SSA) policies and procedures as they relate to privacy and
    disclosure of personal information maintained in SSA’s official records.

•   Reviewed the Consent Based Social Security Number Verification (CBSV) program
    User Agreement.

•   Reviewed 26 CBSV compliance reviews completed as of May 2012.

•   Obtained CBSV transaction data for Fiscal Years (FY) 2009 through 2011.

    o For FY 2009, 48 companies submitted 828,100 verification requests.
    o For FY 2010, 53 companies submitted 1,158,441 verification requests.
    o For FY 2011, 64 companies submitted 1,414,879 verification requests.

•   Obtained a list of CBSV registered users.

•   Gained an understanding of the CBSV compliance review process.

•   Obtained copies of signed Forms SSA-89, Authorization for the Social Security
    Administration to Release Social Security Number Verification, for 22 children whose
    names and SSNs verified through CBSV between January 7, 2010 and
    September 15, 2011.

We determined that the CBSV data used for this audit were sufficiently reliable to meet
our objective. The Office of Public Service and Operations Support is responsible for
managing the CBSV program, which is under the Office of the Deputy Commissioner for
Operations. Our work was conducted at the Philadelphia Audit Division, Philadelphia,
Pennsylvania, from January through June 2012. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.
                  Appendix F

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM


Date:   September 27, 2012                                                     Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Monitoring Controls for the Consent Based Social
        Security Number Verification Program” (A-03-12-11201)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to Amy
        Thompson at (410) 966-0569.

        Attachment




                                                      F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“MONITORING CONTROLS FOR THE CONSENT BASED SOCIAL SECURITY
NUMBER VERIFICATION PROGRAM” (A-03-12-11201)


Recommendation 1

Make a systems change to the CBSV program to prevent the processing of verification requests
without a DoB.

Response

We disagree. We find it cost prohibitive to change our system to incorporate the date of birth
(DoB) in the verification process at this time. We will reevaluate this decision in the future, as
resources allow. In the interim, we will include more Social Security number (SSN) verification
disclosures related to minors’ records in the audit compliance review certified public accountants
conduct for participating companies. This inclusion will strengthen efforts to ensure companies’
compliance with the revised user agreement requirements for verifying minors’ SSNs.

Recommendation 2

Justify and document why the eight companies were not required to have a compliance review
but continued to use CBSV.

Response

We agree. Previously, we determined it was not cost effective to initiate compliance reviews for
companies that use the Consent Based Social Security Verification (CBVS) program for fewer
than 500 verification requests. These eight companies submitted far fewer than 500 verification
requests in fiscal year (FY) 2011. Five companies ranged from 0-6 requests, two companies had
33-46 requests, and one company had 238 requests. With the exception of one, all of the
companies continued their agreement with us in FY 2012.

On August 2, 2012, the Office of Management and Budget approved our revised user agreement,
which includes instructions for a mandatory annual compliance review at the user’s expense. It
states, “SSA will determine the frequency of the Requesting Party’s compliance review, which
must be no less frequently than annually, with additional reviews as determined appropriate.”

Additionally, we recently contracted with a vendor to perform independent compliance reviews
on our behalf. We expect these reviews to provide additional guidance and recommendations for
the compliance review process. We consider this recommendation closed for tracking purposes.




                                               F-2
Recommendation 3

Require that participating companies conduct a compliance review at least annually.

Response

We agree. As stated in our response to recommendation 2, we recently revised our requirements
and now require an annual review regardless of the number of verification requests. We consider
this recommendation closed for tracking purposes.




                                              F-3
                                                                         Appendix G

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Virginia Harada, Audit Manager

Acknowledgment

In addition to those named above:

   David Domzalski, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-03-12-11201.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
